  Report No. D-2007-054     February 20, 2007




Quality Assurance in the DoD Healthcare System
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ASD(HA)               Assistant Secretary of Defense (Health Affairs)
BUMED                 Bureau of Medicine and Surgery
CCQAS                 Centralized Credentials and Quality Assurance System
MHS                   Military Health System
MTF                   Military Treatment Facility
PCE                   Potentially Compensable Event
PSP                   Patient Safety Program
PEBLO                 Physical Evaluation Board Liaison Officer
               Department of Defense Office of Inspector General
Report No. D-2007-054                                                  February 20, 2007
   (Project No. D2005-D000LF-0147)

              Quality Assurance in the DoD Healthcare System

                                 Executive Summary

Who Should Read This Report and Why? Policymakers, healthcare managers,
healthcare providers, patient safety, and risk managers should read this report to become
aware of issues related to complete and timely reporting of medical incidents in the
military healthcare system.

Background. Medical quality assurance is a comprehensive process used to monitor and
evaluate the quality and appropriateness of patient care and the clinical performance of
all practitioners in the military health system. Two components of a medical quality
assurance program are patient safety and risk management. Patient safety programs
identify actual and potential problems in medical systems and processes whereas risk
management programs help prevent accidents and injuries and reduce the cost of claims
and risk of other financial losses.

Medical quality assurance also includes managing and reporting medical incidents.
Medical incidents include near miss and adverse events. Adverse events occur when a
beneficiary of the military health system experiences unexpected harm. Some adverse
events are potentially compensable and can result in a paid claim to a dependent or
retiree or the disability retirement or separation of an active duty member.

Results. The Deputy Assistant Secretary of Defense (Clinical and Program Policy)
requested the audit because of concerns that the military healthcare system does not
provide full visibility over the quality assurance process DoD uses to report medical
incidents.

We visited seven military treatment facilities in the military health system. Each
maintained certification from the Joint Commission on Accreditation of Healthcare
Organizations and had active and ongoing programs for patient safety and risk
management. In spite of these programs, healthcare managers in the health system did
not have sufficient visibility of medical incident events. To improve the system, we
recommend that the Assistant Secretary of Defense for Health Affairs and the Military
Departments revise their regulations on quality assurance, require uniform use of the
information system DoD uses to track risk management, and establish a link between
patient safety and risk management for medical incidents deemed potentially
compensable events. Such improved guidance as well as consistent implementation and
reporting from the patient safety and risk management programs will help military health
system managers monitor and improve the quality of medical care in the military health
system and mitigate the risk of financial loss. See the Finding section of the report for
the detailed recommendations.

As DoD moves toward increased joint operations, the ability of the military health system
to share and compare data is critical. The quality assurance program is another
opportunity to improve joint operations by providing military health system managers
with accurate and timely visibility of all medical incidents involving active duty
members, retirees, and dependents.

Management Comments and Audit Response. The Assistant Secretary of Defense
(Health Affairs) concurred with the audit finding and conclusions and stated that his
office is revising DoD Regulation 6025.13, “Clinical Quality Assurance in the Military
Health System,” June 11, 2004. The Assistant Secretary stated that he would incorporate
the recommendations into the revised DoD Regulation 6025.13, and that the revision
would be closely coordinated with the Military Departments. The Assistant Secretary of
the Army (Manpower and Reserve Affairs), the Army Surgeon General, the Assistant
Secretary of the Navy (Manpower and Reserve Affairs), the Chief, Bureau of Medicine
and Surgery, and the Air Force Surgeon General generally concurred with the
recommendations addressed to them.

The Army Surgeon General did not agree with the recommendation to establish a quality
assurance focal point for the centralized reporting of functional area reviews. The Army
Surgeon General also stated that functional area reviews are outdated and that DoD
requirements for tracking and comparing functional area results should be predicated on
current accrediting agency performance improvement processes. We support the
ASD(HA) efforts to revise this section of the Regulation, because functional area reviews
are a critical part of a successful quality assurance program. We maintain that functional
area review results should be centralized in one location in military treatment facilities to
assist in comparing and analyzing quality assurance information in a timely manner.

The Chief, Bureau of Medicine and Surgery stated that he would advise commanding
officers of military treatment facilities to refer those Physical Evaluation Board cases
where medical care is called into question to the risk manager. The intent of the
recommendation was to make sure that the Medical Evaluation Board approving officials
identify and report all Medical Evaluation Board cases, including those not submitted to
Physical Evaluation Boards, to military treatment facility risk managers for further
evaluation. We maintain that Medical Evaluation Board cases, where medical care is
questioned, should be identified and reported to the military treatment facility risk
manager.

We request that the Army Surgeon General provide additional comments on the
establishment of a quality assurance focal point in each military treatment facility. We
request that the Chief, Bureau of Medicine and Surgery provide additional comments
clarifying the Navy’s position on submitting all active duty Medical Evaluation Board
cases to a military treatment facility risk manager. We request the Army and Navy
comments on the final report by March 20, 2007.

See the Finding section for a discussion of management comments on the
recommendations. See Appendix B for a discussion of management comments on the
Background and Finding sections of the report and for a discussion of unsolicited
comments on the recommendations. See the Management Comments section of the
report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

DoD Policies and Procedures                                             2

Objective                                                               2

Review of Internal Controls                                             3

Other Matters of Interest                                               4

Finding
     Implementation of the DoD Quality Assurance Program                5

Appendixes
     A. Scope and Methodology                                          22
          Prior Coverage                                               24
     B. Discussion of Management Comments on Background and Finding
        and Unsolicited Comments on Recommendations                    25
     C. Additional Information Related to Quality Assurance Guidance   33
     D. Opportunities to Identify Active Duty Adverse Events           37
     E. Functional Area Reviews                                        38
     F. Summary of Recommendations from the DoD Healthcare Quality
         Initiatives Report                                            42
     G. Glossary                                                       44
     H. Report Distribution                                            45

Management Comments
     Assistant Secretary of Defense (Health Affairs)                   47
     Department of the Army                                            53
     Department of the Navy                                            60
     Department of the Air Force                                       67
Background
    The Deputy Assistant Secretary of Defense (Clinical and Program Policy)
    requested the audit. He was concerned that the military health system (MHS)
    does not provide full visibility over the quality assurance processes for reporting
    medical incidents.

    Military Health System. DoD strives to provide world-class medical care to
    beneficiaries at 70 hospitals as well as numerous medical and dental clinics,
    technically called military treatment facilities or MTFs. For this report, the term
    MTF includes only hospitals. More than 132,000 MHS personnel serve about
    9.2 million beneficiaries throughout the world. DoD spent about $37 billion in
    FY 2006 on its health system. The mission of the MHS is to enhance DoD and
    our Nation’s security by providing health support for the full range of military
    operations and sustaining the health of eligible beneficiaries.

    Medical quality assurance is a comprehensive process that the MHS uses to
    monitor and evaluate the quality and appropriateness of patient care as well as the
    clinical performance of practitioners. Quality assurance in the MHS also includes
    reporting and managing medical incidents through programs for patient safety and
    risk management. Both of those programs focus on preventing and reducing
    medical incidents in the MHS. In this report, we define medical incidents as near
    miss or adverse events. See Appendix G for a glossary of near miss and adverse
    events as well as other terminology that people use in the quality assurance,
    patient safety, and risk management processes.

    Incident Reporting. The patient safety program (PSP) at each MTF identifies
    and centrally reports problems in medical systems and processes and then
    implements actions that will improve patient safety throughout the MHS. DoD
    requires that each MTF PSP have procedures and standards in place for receiving
    medical incident reports from clinical staff, administrative staff, and patients or
    their families. In the MTFs, PSP personnel evaluate medical incidents to
    determine how and why they occurred. Patient safety personnel work closely
    with risk management personnel.

    Risk management personnel evaluate adverse events and determine whether they
    are potentially compensable events (PCEs). A PCE occurs when a beneficiary
    experiences any unintended or unexpected negative outcome. A PCE requires a
    determination for standards of care and degree of injury. A standards of care
    determination is a decision about whether a healthcare provider’s diagnosis,
    treatment judgment, and actions were reasonable and appropriate within their
    healthcare discipline or specialty. Risk management programs help reduce the
    liability of the Government by archiving information on PCEs as support for the
    possible defense of future malpractice cases.

    Medical Malpractice Claims. DoD dependents and retirees have 2 years after
    an incident occurs or after harm is recognized to file a malpractice claim with a
    Service legal office. Military Department legal offices may deny or settle a claim.
    If denied, the DoD dependent or retiree can refile a claim within 6 months with
    the Department of Justice. Military Department personnel in the Offices of the
    Surgeons General are required to enter claims, both filed and paid, into the


                                         1
    Centralized Credentials Quality Assurance System (CCQAS) that the Department
    of Legal Medicine monitors. In addition to tracking and trending medical
    malpractice claims, the Department of Legal Medicine at the Armed Forces
    Institute of Pathology consults, educates, and researches those DoD matters
    relating to medical and legal quality assurance and risk management.

    By statute, active duty members cannot receive compensation from the
    Government for financial claims and lawsuits because of the Feres Doctrine. The
    Feres Doctrine is based on the 1950 Supreme Court decision, Feres v. United
    States. The exclusive remedies for active duty members killed or injured during
    military service, including injuries that result from medical care, are the military
    disability system and other compensation programs run by the Department of
    Veteran Affairs.

    MTF Accreditation. The Joint Commission on Accreditation of Healthcare
    Organizations surveys and accredits the 70 MTFs. The Joint Commission on
    Accreditation of Healthcare Organizations is an accrediting organization that
    provides a set of standards that measure the quality of healthcare in the United
    States and around the world.


DoD Policies and Procedures
    DoD Directive 6025.13, “Medical Quality Assurance (MQA) in the Military
    Health System (MHS),” May 4, 2004, (the Directive), establishes policy for DoD
    on issues related to medical quality assurance programs and activities. The
    Directive states that the MHS must maintain active and effective organizational
    structures, management emphasis, and program activities that will assure quality
    healthcare throughout the MHS.

    The Directive authorizes DoD Regulation 6025.13-R, “Military Health System
    (MHS) Clinical Quality Assurance (CQA) Program Regulation,” June 11, 2004,
    (the Regulation). The Regulation implements policy guidance established in the
    Directive. It requires that commanders implement programs for patient safety and
    risk management in the MTFs and use quality assurance reviews for evaluating
    beneficiary care outcomes as a principal measure of quality.

    See the Finding section of the report for the Military Departments’ guidance and
    procedures.


Objective
    The overall objective of the audit was to evaluate the completeness, effectiveness,
    and performance of the quality assurance processes that involve reportable
    medical incidents. We focused our audit on whether healthcare managers had
    visibility over medical incidents that occur in MTFs. We also assessed the
    management control program as it related to the audit objective. See Appendix A
    for a discussion of the scope and methodology as well as prior coverage.



                                         2
     Limited Patient Safety and Risk Management Reviews. Although we focused
     this audit on the visibility of medical incidents within the MHS, we verified the
     adequacy of the programs for patient safety and risk management on a limited
     basis at the seven MTFs visited. See Appendix A for the scope of the audit.

     Our limited review of the programs for patient safety and risk management
     showed that the MTFs visited have programs that are active and ongoing.
     Opportunities exist (see the Finding section) to improve the quality assurance
     program for the MHS through identifying and reporting medical incidents.


Review of Internal Controls
     DoD Instruction 5010.40, “Manager’s Internal Control (MIC) Program
     Procedures,” January 4, 2006, requires DoD organizations to implement a
     comprehensive system of management controls that provide reasonable assurance
     that programs are operating as intended and to evaluate the adequacy of the
     controls.

     Scope of the Review of the Management Control Program. We reviewed the
     adequacy of the management controls related to the Military Departments’ quality
     assurance programs. We focused on program guidance and the procedures for
     identifying and reporting medical incidents. Finally, we determined whether the
     self-evaluation of management controls adequately met the requirements and
     intent of DoD Instruction 5010.40.

     Adequacy of Management Controls. For the MTFs visited, a weakness exists
     in quality assurance programs as DoD Instruction 5010.40 defines. Management
     controls that would ensure consistent implementation and uniform reporting of
     quality assurance information to senior DoD managers of the MHS did not exist.
     Because of the limited number of MTFs visited and because MTFs were
     accredited, we did not make a judgment on the materiality of the weakness
     identified.

     Implementation of the recommendations will help to deliver safe and effective
     healthcare to DoD beneficiaries. We will provide a copy of the report to the
     senior official responsible for management controls within the TRICARE
     Management Activity and the Military Departments.

     Management’s Self-Evaluation. The Office of the Assistant Secretary of
     Defense (Health Affairs) [ASD(HA)] did not identify quality assurance, risk
     management, or patient safety as assessable units. The Army and Navy Surgeons
     General identified the subject areas as assessable units. The Navy reported no
     material weaknesses, and the Army has reviews scheduled in future years. The
     Air Force Surgeon General did not identify the subject areas as assessable units.




                                          3
Other Matters of Interest
     Public Law 105-174 (May 1, 1998) required that the Secretary of Defense appoint
     an independent panel of experts to evaluate measures that the then Acting
     ASD(HA) and Surgeons General took to improve the quality of care in the MHS.
     The panel’s report, “DoD Healthcare Quality Initiatives Review,” undated (the
     Panel report), presents 4 general and 44 specific recommendations for improving
     quality relative to 9 initiatives. One of the general recommendations directs DoD
     to implement a Unified Military Medical Command for managing an error
     reduction and safety program that is based on root cause analysis and system
     process redesign. The panel also recommended that DoD install robust,
     comprehensive data systems that can measure and monitor quality outcomes, use
     of resources, and healthcare costs. DoD implemented some of the panel’s
     recommendations and incorporated them into the Directive and the Regulation.
     See Appendix F for a summary of the panel’s recommendations.




                                         4
           Implementation of the DoD Quality
           Assurance Program
           As part of its overall effort to improve the safety and quality of healthcare
           provided to beneficiaries, the DoD MHS maintains active programs for
           patient safety and risk management. Each of the seven MTFs visited had
           Joint Commission on Accreditation of Healthcare Organizations
           certification. However, MHS managers did not have sufficient visibility
           over medical incidents. To improve visibility over medical incidents:

           •   the ASD(HA) and the Military Departments should revise quality
               assurance guidance, and the Military Departments should implement
               the revised DoD Regulation;

           •   the ASD(HA) and the Military Departments should require use of the
               risk management module of the CCQAS for complete and timely
               reporting of all PCE and claim information; and,

           •   the ASD(HA) should establish an interface between the Patient Safety
               Reporting System and the CCQAS to facilitate exchange of
               information on medical incidents that are determined potential
               compensable events.

           Improved guidance as well as consistent implementation and reporting
           from the programs for patient safety and risk management will help MHS
           managers monitor and improve the quality of medical care in the MHS
           and mitigate the risk of financial loss.


Quality Assurance Guidance
    The seven MTFs visited maintained active programs for patient safety and risk
    management; however, guidance on quality assurance needs improvement. The
    Regulation needs to be revised in several areas. Improvements to the Regulation
    should require:

           •   that the risk management process identify any PCE;

           •   that risk managers report to the Surgeons General any compensable
               disability retirement or separation resulting from medical malpractice;

           •   that information necessary to monitor and oversee the PSP is available
               to ASD(HA) healthcare managers;

           •   that functional area review information is available to accommodate
               comparisons and trends throughout the MHS; and,

           •   use of clear and descriptive terminology for categorizing, identifying,
               and reporting medical incidents.


                                         5
Improved and consistently applied guidance will help improve the quality of
medical care throughout the MHS.

Identifying Potentially Compensable Events. DoD needs guidance that will
help risk managers identify all PCEs. The Regulation defines a PCE as:
       An adverse event that occurs in the delivery of healthcare and services
       with resulting beneficiary injury. It includes any adverse event or
       outcome, with or without legal fault, in which the patient experiences
       any unintended or unexpected negative result.

When adverse events are determined a PCE, the risk manager must initiate a
standards of care determination to make sure a healthcare provider’s diagnosis,
treatment judgments, and actions were reasonable and appropriate. Guidance can
be improved by (1) requiring legal counsels participate in determining a PCE;
(2) including all active duty adverse events when determining a PCE, and
(3) identifying alleged and suspected active duty adverse events through the
Medical Evaluation Board process.

The MHS needs legal office participation and coordination with risk management
when risk managers evaluate adverse events as potentially compensable.
Procedures in the Regulation and Military Department guidance for classifying
and determining PCEs were inconsistent, and the guidance was not clear about
whether DoD intended involvement of legal counsel during or after an event is
determined to be potentially compensable. The Regulation should be consistent
and require that risk managers consult with the MTF legal office when evaluating
adverse events as potentially compensable. See “Legal Counsel Participation in
PCE Determinations” in Appendix C for additional details.

Guidance is needed requiring that risk managers include all active duty adverse
events when determining a PCE. The Feres Doctrine bars active duty members
from receiving compensation from financial claims and lawsuits that may arise
because of an adverse event. The Regulation does not include military disability
retirement and separation benefits resulting from an active duty adverse event as
another form of compensation that should be considered in a PCE determination.
Risk management personnel did not always consider active duty adverse events
when making PCE determinations because they did not consider active duty
disability retirements and separations as a form of financial compensation. As a
result, active duty adverse events that risk managers did not initially identify as
potentially compensable could go unidentified and unreported.

Guidance is also needed to help identify any alleged or suspected active duty
adverse events during the Medical Evaluation Board process. The Medical
Evaluation Board documents an active duty member’s medical status and
provides MTFs with a final opportunity for identifying possible active duty
adverse events and PCEs that went unreported when the active duty member
initially received treatment. The active duty adverse event may have occurred at
the same MTF where the Medical Evaluation Board is located or at another MTF.
Medical Evaluation Board personnel are not required to identify alleged or
suspected adverse events. Additionally, the Medical Evaluation Board is not
required to notify risk managers of a suspected adverse event for patient safety
review or evaluation as a PCE. As a result, active duty adverse events that cause


                                         6
a disability would remain unreported and would not receive the level of oversight
or visibility consistent with DoD quality assurance initiatives. See “Identification
of Alleged or Suspected Active Duty Adverse Events During the Medical
Evaluation Board Process” in Appendix C for additional details.

Appendix D shows the process flow for evaluating active duty medical events and
discusses two opportunities for reporting possible active duty adverse events to
the risk manager. Those opportunities for reporting include an active duty
member’s interaction with the Physical Evaluation Board Liaison Officer
(PEBLO) and identification of active duty adverse events by the Medical
Evaluation Board. The PEBLO is an advocate for active duty members in the
disability evaluation system and someone who can be alert to allegations that the
active duty member might make because of medical care provided in the MHS.
The approving official for the Medical Evaluation Board is a commanding officer
or designated physician, independent of the Board, who reviews medical
documentation related to medical disability cases and acts on Board findings and
recommendations. Approved cases go to Military Department Physical
Evaluation Boards, which determine fitness for duty and, if necessary, disability
retirement or separation. Both the PEBLO and the approving official for the
Medical Evaluation Board are in positions to identify and report allegations or
suspicions of active duty adverse events to MTF patient safety and risk managers
for validation and PCE determination.

Reporting Medical Malpractice to the Surgeons General. Of the seven MTFs
visited, none could demonstrate that they were reporting compensable disability
retirements or separations caused by medical malpractice to the Surgeons
General. After a Physical Evaluation Board reaches a decision on an active duty
compensable disability retirement or separation resulting from medical
malpractice, the Regulation requires the senior medical officer of the Medical
Evaluation Board to report the decision to the Surgeon General. Personnel
involved in the Medical Evaluation Board process stated that they were unaware
of the reporting requirement to the Surgeons General. MTF personnel were
unable to determine the number of reportable compensable disability retirements
or separations because they did not identify medical malpractice cases during the
medical evaluation process.

Risk managers, instead of senior medical officers of the Medical Evaluation
Boards, should report compensable disability retirement or separations that result
from medical malpractice to the Surgeon General. The risk manager oversees
PCEs, has access to information to identify and link medical malpractice cases to
disability cases, and is in the best position to report compensable disability
malpractice events to the Surgeon General. The senior medical officer may not
be involved with the risk management program, may not be aware of alleged or
suspected adverse events, and is normally not involved after the Medical
Evaluation Board completes its medical evaluation.

Guidance from the Army and Air Force did not identify reporting compensable
disability retirement or separation cases that resulted from medical malpractice to
the Surgeons General. Bureau of Medicine and Surgery (BUMED)
Instruction 6010.18A, “Participation in the National Practitioner Data Bank,”
February 13, 2003, requires that the Physical Evaluation Board report to the
Surgeon General any case of an active duty member whose medical impairment


                                     7
may have been incurred by medical care. The Navy Surgeon General did not
receive any reports of active duty members because the Physical Evaluation
Board did not determine that any impairment was a result of medical care.

Requiring that risk managers monitor active duty medical malpractice cases, link
those cases to retirement and separation decisions, and report those cases to the
Offices of the Surgeons General would help to identify adverse events for active
duty members.

Patient Safety Program. Guidance is needed to make sure that ASD(HA)
healthcare managers have the information necessary for establishing and
coordinating joint patient safety activities. MHS personnel cannot view or access
detailed medical incidents above the Offices of the Surgeons General level.
Detailed medical incident information would help MHS personnel identify and
trend medical information on situations that place patients at risk in the MHS as
well as identify areas for improving the MHS.

The Regulation states that monthly summary reports and other information
submitted to the Patient Safety Center must not include names or other identifying
information on patients, healthcare staff, or MTFs. However, a healthcare
manager in the Office of the ASD(HA) stated that to maintain oversight of the
DoD PSP, visibility beyond summarized and de-identified information is
necessary to heighten awareness and enhance visibility of patient safety activities.

MTF monthly summary reports include only categorized numerical summaries of
the patient safety events, which the Patient Safety Center uses to centrally
develop, promote, and manage its patient safety database. Monthly summary
reports categorize near miss, actual, and sentinel events into reporting categories
and subcategories.

The categories briefly describe the type of event, and the subcategories further
describe the event. For example, a “delay in treatment” incident may be further
subcategorized as “delayed test results.” No identifying details other than near
miss and “actual” event numerical summaries for each category or subcategory
are available on the monthly summary reports. Except for sentinel events,
detailed information cannot be matched to a specific event or MTF where the
event occurred. ASD(HA) healthcare managers receive detailed information that
identify sentinel events. Healthcare managers in the Office of the ASD(HA)
should determine and convey to the Military Departments the detailed
information that will help to adequately monitor the DoD Patient Safety Program.
The Office of the ASD(HA) should revise the Regulation so that Office of the
ASD(HA) healthcare managers have access to information necessary to monitor
and provide comprehensive oversight of the DoD PSP.

Functional Area Reviews. Guidance should make sure that ASD(HA)
healthcare managers can compare functional area review results throughout the
MHS. At the time of our review, none of the MTFs visited established oversight
for reporting functional area reviews or designated a focal point to compile the
results of the reviews. Uniform reviews of functional areas help quality
improvement efforts because uniformity allows comparison with civilian
benchmarks, comparisons between regions and Military Department MTFs, and
identification of best clinical practices.


                                     8
The Regulation requires that MTF personnel perform 14 functional area reviews
and provides specific criteria for those reviews. We reviewed 13 of the
14 specific clinical functional areas and reviewed 67 elements that comprise
criteria for the 13 reviews. Because it was included in our review of the programs
for patient safety and risk management for each MTF, we did not include the
adverse outcome screening functional area. Examples of functional areas include
medical staff functions such as reviews of surgical cases, blood usage, drug usage,
as well as emergency departments, and special care units. At each MTF visited,
we relied on documentation that MTF personnel provided to determine whether
they included each functional area review element. We did not determine the
validity of the results of the functional area reviews for each MTF or the
frequency of the reviews.

At the seven MTFs, medical staff and quality assurance personnel stated that they
were not aware of the functional area reviews the Regulation requires. We met
with physicians and nurses as well as patient safety, risk management, and other
personnel to determine if they completed elements related to the 13 functional
areas. In some cases, MTF departments may have completed a review that
matched a specific element, but no one person in the MTF knew if the required
reviews were completed. Throughout the seven MTFs visited, little consistency
existed in supporting documentation, how MTF personnel performed the reviews,
or how MTF personnel complied with the requirements of the Regulation.

The Regulation requires that the MHS quality assurance program include
functional area reviews that monitor and evaluate the quality and appropriateness
of patient care, the clinical performance of all physicians, and the performance of
medical departments throughout the MTFs. However, the Regulation does not
specify the content, frequency, or format of reviews, or require a centralized focal
point for compiling and reporting the results of a functional area review.
Additionally, Military Department guidance did not comprehensively identify the
functional areas or provide the same level of detail as specified in the Regulation.
The Air Force is the only Military Department that expanded on the functional
areas and included some of the same specific elements as the Regulation. See
“Functional Area Reviews” in Appendix C for additional details and Appendix E
for the 13 functional areas and the 67 elements.

Inconsistent Terminology. The MHS needs clear and descriptive terminology
for categorizing, identifying, and reporting medical incidents. The Regulation,
the DoD Patient Safety Center, and the Military Departments each define near
miss, adverse and sentinel events, and PCEs differently, and the terminology
needs to be clarified. Depending on the definition used, some near miss and
adverse events are interchangeable and may result in under- or over-reporting
throughout the MHS. Confusion can also occur with identifying sentinel events,
depending on the definition used. Finally, cases with potential financial risk to
the Government will not be uniformly identified because of inconsistent PCE
definitions for the Military Departments and because no difference exists in the
Regulation’s definition of an adverse event and PCE. The MHS needs clear,
concise, and consistent terminology so medical incidents are categorized in the
same way, reported uniformly, and not used interchangeably. The “Quality
Assurance Terminology” section of Appendix C provides further discussion on
the differences for definitions as well as explanations of how medical incidents
may be under- or over-reported.


                                     9
Use of the Centralized Credentials and Quality Assurance
  System Risk Management Module for Reporting PCEs and
  Claims Information
    ASD(HA) and the Military Departments can improve visibility over PCE and
    claim information by using CCQAS. The risk management module of CCQAS is
    a Web-based, worldwide application that helps manage PCEs, as well as filed,
    and paid medical malpractice claims and disability claims.

    Use of CCQAS. The MHS did not have complete visibility over PCEs and
    medical malpractice claim information, in part, because CCQAS use varied
    among Military Departments. The Regulation requires that MTF risk
    management personnel promptly report every PCE in CCQAS, and that personnel
    in the Offices of the Surgeons General report every medical malpractice claim,
    both filed and paid, into CCQAS. The Regulation also requires that every case in
    which medical care may have contributed to the death or disability of an active
    duty member be promptly reported in CCQAS. Although not required to do so,
    some MTF risk managers also entered filed and paid claims. The table below
    shows the varying degrees of use of CCQAS at the seven MTFs.

                            MTF Use of CCQAS Risk Management Module

                                                                   MTF Entering Data for
                                                                         Filed         Paid
     MTF Location                                               PCEs    Claims        Claims

     Tripler Army Medical Center, Hawaii                        Yes*         Yes*          Yes
     Darnall Army Community Hospital, Texas                     Yes          Yes*          Yes
     Portsmouth Naval Medical Center, Virginia                   No          Yes*           No
     Naval Hospital Jacksonville, Florida                       Yes*         Yes*           No
     Naval Hospital Camp Pendleton, California                   No           No            No
     Wilford Hall Medical Center, Texas                          No          Yes           Yes*
     96th Medical Group, Eglin Air Force Base, Florida           No           No            No

     *MTFs did not enter all PCEs, filed, or paid claims selected for review into the system.


    At each MTF, we selected a limited number of PCEs and claims and determined
    if risk managers entered required information into CCQAS. For the PCEs we
    selected for review, the risk manager at Darnall Army Community Hospital
    entered the events into CCQAS. Risk managers at Tripler Army Medical Center
    and Naval Hospital Jacksonville entered some of the PCEs, and the remaining risk
    managers at the MTFs did not enter PCE information.

    Although the Regulation states that personnel in the Offices of the Surgeons
    General must enter claim information, some risk managers were also entering
    claim information at the MTF level. For the filed claims we selected, risk


                                             10
managers at Wilford Hall Medical Center entered all of the filed claims into
CCQAS. At Tripler Army Medical Center, Darnall Army Community Hospital,
Portsmouth Naval Medical Center, and Naval Hospital Jacksonville, risk
managers reported some of the filed claims and, at the remaining two, risk
managers did not report any filed claims.

For the paid claims selected, risk managers at Darnall Army Community Hospital
and Tripler Army Medical Center entered paid claims into CCQAS. The risk
manager at Wilford Hall Medical Center entered some of the paid claims. At the
remaining four locations, risk managers did not enter paid claim information into
the system.

Finally, the Surgeons General did not enter information into the disability
submodule of CCQAS for compensable active duty medical malpractice cases.
As discussed earlier, none of the MTFs visited were aware of the requirement for
Medical Evaluation Boards to identify and report cases of compensable active
duty medical malpractice to the Offices of the Surgeons General. To improve
visibility of PCEs and medical malpractice claims, MHS healthcare managers
should consistently use CCQAS.

Inconsistencies in the CCQAS Risk Management Module. For those MTFs
using the CCQAS risk management module, inconsistencies existed when
reporting PCEs, filed, and paid claims as well as disability claims. The risk
management module contains four submodules: the incident management, the
JAGMAN, the claims management, and the disability management submodule.
Although two of the Military Departments have already adapted the incident and
JAGMAN submodules to report PCEs, the submodules were not developed for
this purpose.

        Incident Management Submodule. Inconsistent and incomplete use of
the incident and JAGMAN submodules for CCQAS prevented full visibility of
PCEs across the MHS. Although the Regulation does not specify where to report
PCEs in the system, the Army and Navy tried to use the incident and JAGMAN
submodules as a method to record PCEs in CCQAS. The Army modified the
incident management submodule of CCQAS to assist Army MTF personnel with
documenting the facts and findings associated with incidents identified as PCEs.
The Navy developed the JAGMAN submodule, which assists Navy MTF
personnel in documenting the facts and findings from investigations convened at
Navy MTFs. As of August 2006, the Air Force had not adapted and did not use
the incident submodule of CCQAS to enter PCE information. The Air Force
MTFs we visited report PCEs to the Air Force Surgeon General outside of
CCQAS.

The Army and Navy submodules capture many of the same types of information
in CCQAS. However, the Army and Navy data field names were not consistent
within the submodules. Additionally, completion of some data fields is optional
in one Military Department and required by another. Because of Military
Department business rules, only Army and Navy MTFs and their respective
Offices of the Surgeons General, can see PCE information. Army and Navy PCE
information is not visible to other Military Departments or to ASD(HA)




                                   11
healthcare managers. Additionally, the Military Departments have stated the
incident submodule does not include all data fields necessary for risk managers to
manage PCEs.

        Claims Management and Disability Management Submodules.
Inconsistent and incomplete use of the Claims Management and Disability
Management submodules of CCQAS does not facilitate joint analysis of filed and
paid medical malpractice and disability claims across the MHS. The Claims
Management and Disability Management submodules of CCQAS help personnel
record malpractice and disability claims involving their MTFs. The submodules
enable MTFs to record details about incidents underlying medical malpractice
claims as well as dates and assessments made during the processing of a claim.
To fit their respective needs, each Military Department altered the submodules.
Although many of the fields are the same, no consistency exists among the
Military Departments in which fields are mandatory to populate. Additionally,
ASD(HA) healthcare managers cannot oversee filed and paid medical malpractice
claims and disability claims until after the Offices of the Surgeons General
complete their review and release the information to the Department of Legal
Medicine. The legal and administrative processes associated with management
and closure of medical malpractice claims in DoD can be lengthy.

        Closing Paid Claims. The Navy needs to determine why its percentage
of filed and paid claims reported to the Department of Legal Medicine was
significantly lower than the Army and the Air Force. The CCQAS claims and
disability submodules include historical claim information from Military
Department legacy systems. CCQAS also includes the current claim information
at the MTF level as well. MTF risk managers must input paid claims and then
electronically release information to the Offices of the Surgeons General through
CCQAS. The Offices of the Surgeons General complete their review and
electronically release filed and paid claims by way of CCQAS to the Department
of Legal Medicine at the Armed Forces Institute of Pathology for analysis and
review. As of June 2006, the Army released 4,873 of 5,472 claims (89 percent) to
the Department of Legal Medicine and the Air Force released 2,355 of 2,822
claims (83 percent). However, the Navy released only 144 of 1,489 claims
(10 percent). The Surgeon General of the Navy should review and validate its
inventory of claim information, determine those claims eligible for release as
required by the Regulation, and submit those claims in a timely manner to the
Department of Legal Medicine.

To ensure the MHS has complete and timely visibility over PCEs and all claim
information, the Office of the ASD(HA) and the Military Departments should
assess whether the information captured in the risk management submodules
contains information that can help management facilitate MHS-wide analysis.
The Office of the ASD(HA) should also require standard risk management
modules that can help track and trend PCEs, filed, and paid claims as well as
disability claims. In addition, the Military Departments should use uniform data
fields to input information. Consistent information and real-time access to open
claim information in CCQAS will enable healthcare managers for the ASD(HA)
to have complete and timely visibility of PCEs, and medical malpractice and
disability claims. Complete and up-to-date information will also let healthcare
managers identify trends and monitor healthcare in the MHS.



                                    12
Patient Safety and Risk Management Reporting
    The MHS does not have a method for linking patient safety and risk management
    events that are determined to be PCEs. As a result, healthcare managers for the
    ASD(HA) cannot follow the life cycle of a medical malpractice or disability
    claim.

    Patient Safety Program. The Regulation requires that MTFs, through
    participation in a PSP, identify and report actual and potential problems in
    medical systems and processes and implement effective actions that will improve
    patient safety and healthcare quality throughout the MHS. Specifically, the
    objectives of the PSP are to improve coordination of patient safety activities
    across the Military Departments, develop an analysis plan for patient safety data
    to uncover opportunities for improvement in the MHS, create a culture of trust in
    reporting medical errors, and increase patient awareness and involvement in
    patient safety initiatives. The PSP also maintains oversight of the Patient Safety
    Center reporting system.

    Risk Management Program. DoD Directive 6025.13 requires that MTFs
    implement active systems and programs for risk management that will reduce
    liability risks associated with actual or alleged cases of medical malpractice and
    use those systems and programs to reinforce other medical quality assurance
    program activities. Army Regulation 40-68, “Clinical Quality Management,”
    February 26, 2004, emphasizes collaboration among organizational staff members
    who are responsible for risk management, patient safety, and MTF safety as well
    as occupational health and integrating these processes to avoid redundancies.
    BUMED Instruction 6010.21, “Risk Management Program,” October 29, 1996,
    requires that risk management programs be as standard as possible. Air Force
    Instruction 44-119, “Clinical Performance Improvement,” June 4, 2001, requires
    that a coordinated approach to improving patient care requires an intensive,
    integrated, and collaborative systems approach by all disciplines in the MTF and
    that every effort must be made to jointly plan and carry out performance
    improvement and risk management programs and activities.

    Interfacing Patient Safety and Risk Management Information. In FY 2007,
    9 of the 70 MTFs will began using an automated patient safety system for
    reporting near miss and adverse events. The system will provide more
    consistency in reporting MTF medical incidents. The system will not, however,
    provide visibility of detailed information above the Offices of the Surgeons
    General. To oversee the DoD PSP, information other than summary statistics by
    MTF is necessary at the ASD(HA) level. Such oversight will enable quality
    assurance personnel to share information related to error prevention and quality
    improvement throughout the MHS. Patient safety and risk management for the
    MTFs are important components of an MTF quality assurance program.
    However, programs for patient safety and risk management also use two different
    reporting systems that do not interface or link patient safety events that are later
    determined to be potentially compensable. Not linking events prevents visibility
    over medical incidents that are initially recognized as adverse events, through the
    process that may lead to a medical malpractice or disability claim.




                                         13
    An automated interface that links information from the patient safety program to
    the risk management program would allow DoD to track the life cycle of a
    medical incident from identification of the event in the PSP to recognition of the
    event as a PCE in the risk management system. An automated interface would
    also enable healthcare managers for the ASD(HA) to reconcile patient safety
    events to filed medical malpractice claims or disability claims in the risk
    management program.


Conclusion
    The medical quality assurance program in DoD provides services that help deliver
    safe and effective healthcare to beneficiaries. The program helps healthcare
    managers make informed decisions about quality assurance. Opportunities exist
    for improving the oversight and reporting of medical events in the MHS. The
    ASD(HA) and the Military Departments should provide complete and consistent
    guidance for identifying, categorizing, reporting, and monitoring the life cycle of
    medical incidents in both the patient safety and risk management programs.
    Additionally, the MHS needs consistent and uniform functional area reviews that
    will provide specific and meaningful comparisons with benchmarks for the MTFs,
    for the Military Departments, and for civilian hospitals.

    In 1998, Public Law 105-174 required appointment of an independent panel to
    evaluate measures taken to improve the quality of care provided by the MHS. In
    its report, the panel recommended that DoD reestablish the Quality Management
    Report to aid in early identification of MHS compliance problems. The panel
    further states in their report that the Quality Management Report should be
    reestablished and improved as a:
           . . . comprehensive information product for communicating with and
           educating leadership . . .on the status of quality in the MHS; and, as a
           vehicle to facilitate meaningful, specific comparisons among the
           Services, the Federal agencies, and the civilian healthcare sector,
           especially in the risk management and patient safety arena.

    The Office of the ASD(HA) reestablished the annual Quality Management Report
    that discusses the quality of health care furnished under the DoD MHS. The
    quality management report must discuss the quality of healthcare measured from
    statistical and customer satisfaction factors that the ASD(HA) determines to be
    appropriate. Implementation of the recommendations will better enable
    healthcare managers at all levels to compare and trend patient safety and risk
    management information. Implementation of the recommendations should also
    provide more in-depth information to healthcare managers in the Office of the
    ASD(HA) for management and oversight of the programs for MHS patient safety
    and risk management.

    As DoD moves toward increased joint operations, the ability of the MHS to both
    share and compare data becomes more critical. The quality assurance program is
    another opportunity to improve joint operations by providing healthcare managers
    complete and timely visibility of all medical incidents involving active duty
    members, retirees, and dependents.


                                             14
Management Comments on the Finding and Audit Response
    In addition to commenting on the recommendations, the ASD(HA), the Assistant
    Secretary of the Army (Manpower and Reserve Affairs), the Army Surgeon
    General, the Assistant Secretary of the Navy (Manpower and Reserve Affairs),
    and the Chief, Bureau of Medicine and Surgery commented on the finding. We
    revised sections of the report because of some of the management comments.
    Unsolicited comments on recommendations and comments related to the
    background and finding are discussed in Appendix B.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Assistant Secretary of Defense (Health Affairs):

           a. Revise DoD Regulation 6025.13-R to require that:

                   (1) Military Department legal office representatives
    participate when evaluating any adverse event as potentially compensable
    events at military treatment facilities.

                 (2) Risk management personnel consider all adverse events for
    active duty members when making determinations for potentially
    compensable events.

                  (3) The Physical Evaluation Board Liaison Officer report to
    the risk manager at each military treatment facility any allegation of injury
    from active duty members that may have occurred as a result of medical
    care provided in the military health system.

                  (4) Approving officials of a Medical Evaluation Board, as part
    of the Medical Evaluation Board approval process, identify and report to the
    risk manager any instance of suspected active duty adverse events.

                 (5) The risk manager, rather than the senior medical officer,
    monitor Physical Evaluation Board disability decisions and report to the
    Surgeon General any separation or retirement that was the result of medical
    malpractice.

                  (6) Specific medical incident information necessary to monitor
    the DoD Patient Safety Program is available to healthcare managers. Such
    information should, at a minimum, provide healthcare managers for the
    Assistant Secretary of Defense (Health Affairs) visibility of actual and
    potential problems in the military health system.

                 (7) Military treatment facilities consistently document with
    uniform content and standard format the results of functional area reviews.
    To develop the content, format and frequency of reports, healthcare


                                      15
managers for the Assistant Secretary of Defense (Health Affairs) should
coordinate with Military Department healthcare managers.

               (8) The Military Departments identify and establish a
centralized quality assurance focal point in each military treatment facility to
ensure that all elements of functional area reviews are performed and
consolidated.

              (9) Healthcare managers for the Assistant Secretary of
Defense (Health Affairs) and the Military Departments develop uniform
reporting standards and consistent terminology for near misses,
adverse/actual events, sentinel events, and potentially compensable events.

        b. Require consistent and comprehensive use of the risk management
submodules of the Centralized Credentials and Quality Assurance System
for the Military Departments. Consistent and comprehensive use should
include full and timely reporting of potentially compensable events, open and
paid claims as well as active duty disability claims.

        c. Develop a list of uniform data fields that are mandatory to
populate in the risk management submodules of the Centralized Credentials
and Quality Assurance System. Healthcare managers for the Assistant
Secretary of Defense (Health Affairs) should determine the information in
the risk management submodules that can help management facilitate
military health system wide analysis and if the incident submodule is an
adequate tool for reporting information on potentially compensable events.

        d. Establish an interface between the Patient Safety Reporting
System and the Centralized Credentials and Quality Assurance System to
facilitate the exchange of information on medical incidents determined to be
potentially compensable events.

ASD(HA) Comments. The ASD(HA) concurred with comments on the findings
and conclusions detailed in the draft report concerning the Department’s quality
assurance procedures for identifying and reporting medical incidents. The
ASD(HA) also concurred with our recommendations and stated that the
recommendations would help strengthen DoD oversight processes. Specifically,
the ASD(HA) stated that the Office of the Deputy Assistant Secretary for Clinical
and Program Policy is currently revising DoD Regulation 6025.13, in
coordination with the Military Departments, and plans to incorporate the
Inspector General, DoD, recommendations into the revision. The ASD(HA)
stated that an interface between patient safety and risk management systems
would be appropriate when the related policies, business processes, and functional
requirements are changed. The ASD(HA) also stated that a review of functional
area requirements is ongoing and that consistent terminology will be developed.
Finally, the ASD(HA) recommended that Recommendation 1.d. be changed to
establish an interface that allows a unidirectional flow of data between the Patient
Safety Reporting system and CCQAS. The ASD(HA) also made similar
comments on the finding text supporting the interface recommendation.

Audit Response. We consider the ASD(HA) comments and planned actions
responsive. The ASD(HA) incorporation of the recommendations into the


                                    16
Regulation revision should result in consistent implementation of the DoD patient
safety and risk management programs. The ASD(HA) comment that the revision
is being closely coordinated with the Military Departments is encouraging. A
forum that includes personnel responsible for the patient safety and risk
management programs in DoD helps achieve a consensus of improvements that
are needed. The revised Regulation should assist healthcare managers at all
levels in monitoring and improving the quality assurance program in the MHS.
Although we accept the ASD(HA) proposal to use a unidirectional interface as
fully responsive to our recommendation, we did not change Recommendation 1.d.
or the body of the report because the recommendation as stated provides the
ASD(HA) with the flexibility to establish the best solution for an interface and
determine the data targeted for exchange.

Military Department Comments. Although not required, the Army Surgeon
General and the Air Force Surgeon General commented on Recommendation 1.
We considered the comments but did not revise the recommendation based on the
comments. See Appendix B for a discussion of the Army Surgeon General and
Air Force Surgeon General comments on Recommendation 1.

2. We recommend that the Surgeons General of the Military Departments
revise and update quality assurance regulations and instructions consistent
with a revised DoD Regulation 6025.13-R. In the interim, the Military
Departments should:

       a. Require that risk management personnel:

            (1) Include adverse events for active duty members when
making potentially compensable event determinations.

               (2) Monitor Physical Evaluation Board disability decisions
and report to the Surgeon General any retirement and separation that was
the result of medical malpractice.

       b. Establish procedures that require Physical Evaluation Board
Liaison Officers report active duty member allegations of injury resulting
from medical care to the military treatment facility risk manager for
evaluation as a potentially compensable event.

      c. Establish procedures requiring that approving officials of Medical
Evaluation Boards identify and report any instances of possible active duty
adverse events to the risk manager for a military treatment facility.

      d. Establish a central quality assurance focal point in each military
treatment facility to oversee the centralized reporting of functional area
reviews.

Army Comments. The Army Surgeon General concurred with all of
Recommendation 2., except for Recommendation 2.d. The Assistant Secretary of
the Army (Manpower and Reserve Affairs) concurred with the response provided
by the Army Surgeon General. Specifically, for Recommendation 2.a.(1) and
2.a.(2), the Army Surgeon General stated that Army Regulation 40-68 already
requires that active duty adverse events be included in PCE determinations and


                                   17
that risk managers monitor the Physical Evaluation Board disability decisions and
report to the Surgeon General. The Army Surgeon General will clearly state this
requirement in the revision to Army Regulation 40-68. The Army Surgeon
General also stated that medical care that may have caused an injury may have
occurred at a different MTF than the one where the Medical Evaluation Board
case is presented. For Recommendation 2.b., the Army Surgeon General agreed
to work with the patient administration division to require PEBLO reporting of
active duty member allegations of injury to the MTF risk manager. On
Recommendation 2.c., the Army Surgeon General stated he will emphasize
procedures for Medical Evaluation Board approving officials to report active duty
adverse events to risk managers.

The Army Surgeon General nonconcurred with Recommendation 2.d. to establish
a central quality assurance focal point in each MTF. The Army Surgeon General
stated that functional area reviews are outdated and overly prescriptive and that
the current level of detail should be deleted from the Regulation. The Army
Surgeon General also stated that DoD requirements for tracking and comparing
functional area results should be predicated on current accrediting agency
performance improvement processes. Additionally, the Army Surgeon General
stated that if a central focal point is needed for other reasons, it already exists at
each MTF in the quality management office.

Audit Response. The Army Surgeon General comments on Recommendations
2.a., 2.b., and 2.c. are fully responsive. We recognize that active duty adverse
events may have occurred at the same MTF where the Medical Evaluation Board
is located or at another MTF. We also recognize that the event may have
happened many years before the Medical Evaluation Board and Physical
Evaluation Board process occurs. It may be necessary for the MTF and the
Surgeon General risk manager to coordinate a review of the event. The revised
Regulation should assist MTF risk managers and other healthcare personnel in
tracking the complete life cycle of an adverse event. Time delays may occur in
the Medical and Physical Evaluation Board process which further supports the
need for comprehensive and complete reporting of all adverse events.

The Army Surgeon General comments on Recommendation 2.d. are not
responsive; therefore we request that the Army Surgeon General reconsider his
position. We agree that some of the functional area review requirements may not
be up-to-date and may be subject to further change. We support the ASD(HA)
efforts to revise this section of the Regulation, because we maintain that
functional area reviews are a critical part of a successful quality assurance
program. This condition does not invalidate the recommendation, which will
allow complete and consistent reporting of functional area review results.

We disagree with the Army Surgeon General statement that the quality
management office is the central focal point for functional area reviews. To
complete the reviews and assist in comparing quality assurance information, the
functional area review results should be centralized in one location at the MTF.
Under the current process, we had to request copies of the functional area reviews
from multiple locations within each MTF visited. We also had to meet with
personnel from numerous clinical departments and other medical support areas to
obtain documentation related to functional area reviews. We request that the



                                      18
Army Surgeon General provide additional comments to Recommendation 2.d. on
the establishment of a quality assurance focal point in each MTF.

Navy Comments. The Assistant Secretary of the Navy (Manpower and Reserve
Affairs), forwarded detailed comments from the Chief, Bureau of Medicine and
Surgery, who is also the Navy Surgeon General. The Navy Surgeon General
concurred with all of Recommendation 2. Specifically, the Navy Surgeon
General agreed to update the BUMED quality assurance regulations consistent
with a revised Regulation. For Recommendation 2.a.(1), the Navy Surgeon
General stated that risk managers currently evaluate all adverse event reports
regardless of patient status and that he would define a process to assist MTF risk
managers in identifying active duty adverse event reports. For
Recommendation 2.a.(2), the Navy Surgeon General will also align BUMED’s
policies with the revised Regulation for MTF risk managers to monitor Physical
Evaluation Board disability decisions and provide guidance to them to identify
cases requiring monitoring and additional investigation, but expressed concern
with the length of time that it currently takes to go through the Medical
Evaluation Board and Physical Evaluation Board process.

On Recommendation 2.b., the Navy Surgeon General will advise commanding
officers to direct the PEBLO at each MTF to report active duty concerns to the
MTF risk manager. For Recommendation 2.c., the Navy Surgeon General stated
that he would advise MTF commanding officers to refer any Physical Evaluation
Board cases where medical care is called into question to the MTF risk manager
for further evaluation. The Navy Surgeon General agreed with Recommendation
2.d. to establish a central quality assurance focal point in each MTF to oversee the
centralized reporting of functional area reviews. Finally, the Navy Surgeon
General agreed to advise MTFs to establish a process to assure that the results of
required reviews are communicated to leadership personnel.

Audit Response. We consider the Navy Surgeon General response to
Recommendations 2.a.(1), 2.a(2), 2.b., 2.d. to be fully responsive. Although the
Navy Surgeon General stated that risk managers evaluate all adverse patient
events, we found that the risk manager at one Navy MTF did not always consider
active duty adverse events when making PCE determinations. The Navy Surgeon
General proposed interim action to define a process to assist the MTF risk
manager in identifying active duty adverse events will strengthen current
requirements. The Navy Surgeon General also raised a legitimate concern with
the length of time between an episode of care or treatment and when the active
duty member may enter the Medical and Physical Evaluation Board process.
Those concerns further support the need for comprehensive identification and
tracking of all active duty adverse events.

The Navy Surgeon General comments on Recommendation 2.c. are partially
responsive. We request that the Navy Surgeon General clarify the Navy’s
position regarding MTF commanding officers referring Physical Evaluation
Board cases to risk managers for further evaluation. Commanding officers may
delegate Medical Evaluation Board approving authority to another individual and
not participate in the Medical Evaluation Board process. We emphasize that
Medical Evaluation Board approving officials, not commanding officers, should
identify and report all cases where medical care is called into question to the MTF
risk manager, including those not forwarded to Physical Evaluation Boards. We


                                    19
request that the Navy Surgeon General explain how cases that are not forwarded
to Physical Evaluation Boards will be handled and clarify who should identify
and report cases to the MTF risk manager.

Air Force Comments. The Air Force Surgeon General concurred with the
recommendations. On Recommendation 2.a.(1), the Air Force Surgeon General
agreed that the identification and analysis of PCEs on all beneficiaries is an
important patient safety and risk management process and that early legal
participation is vital for preventing financial loss. The Air Force Surgeon General
also stated that the Air Force Medical Service proposes to include PCEs and the
results of its medical incident investigations in a CCQAS PCE module, but
explained that CCQAS does not currently have the capability to capture PCEs and
that PCEs are only visible at the MTF level. The Air Force Surgeon General
stated that to fully support the recommendation, DoD must develop a PCE tab in
the CCQAS risk management module that includes an appropriate workflow
process of the events.

On Recommendations 2.a.(2)., 2.b., and 2.c., the Air Force Surgeon General
stated that active duty adverse events that lead to Medical or Physical Evaluation
Board actions should be reported to the MTF risk manager. The Air Force
Surgeon General stated that to implement the recommendation, the revised
Regulation must require change in Air Force policy for identifying possible
medical malpractice events within the medical evaluation process. The Air Force
Surgeon General also agreed with Recommendation 2.d. and stated that functional
area reviews vary by MTF, measure clinical performance, and are monitored by
the Joint Commission on Accreditation of Hospital Organizations. The Air Force
Medical Service will centrally collect and consolidate the functional area reviews
required by accreditation agencies, as well as any additional review required by
DoD.

Audit Response. We consider the Air Force Surgeon General response to be
fully responsive. We note the Air Force Surgeon General comment regarding the
DoD development of a PCE tab in CCQAS. In Recommendation 1.c., we asked
that ASD(HA) determine whether the incident submodule is an adequate tool for
reporting information on PCEs. If necessary, the ASD(HA) should provide the
resources to upgrade CCQAS submodule capabilities that will assist the
ASD(HA) and the Military Departments in MHS-wide analysis of PCEs.

ASD(HA) Comments. Although not required, the ASD(HA) commented on
Recommendation 2. See Appendix B for a discussion of the ASD(HA)
comments.

3. We recommend that the Surgeon General of the Navy review and validate
its inventory of claim information, determine those claims eligible for release
as required by the Regulation, and submit those claims in a timely manner to
the Department of Legal Medicine.

Management Comments. The Navy Surgeon General concurred with the
recommendation and agreed to validate the inventory of paid claims and submit
those claims to the Department of Legal Medicine at the Armed Forces Institute
of Pathology. The Navy Surgeon General stated that since November 2006,
BUMED has released additional claim information to the Department of Legal


                                    20
Medicine; however, cases remain to be validated. Although not required to
respond, the ASD(HA) also concurred with the recommendation.




                                   21
Appendix A. Scope and Methodology
   As requested by the Deputy Assistant Secretary of Defense (Clinical and Program
   Policy), the audit focused on visibility over the quality assurance process used to
   report medical incidents in the MHS. We reviewed DoD and Military
   Department policies and guidance from 1977 through 2004 relating to quality
   assurance, risk management, and patient safety procedures in the MHS. We also
   reviewed Feres v. United States, which determined that, under the Federal Tort
   Claims Act, the United States is not liable for injuries to active duty members of
   the armed forces sustained on active duty and not on furlough and resulting from
   the negligence of others in the armed forces. We also reviewed Military
   Department comments on the then draft DoD Directive 6025.13 and the then draft
   DoD Regulation 6025.13-R.

   From May 2005 through June 2006, we met with representatives from the
   TRICARE Management Activity, the Armed Forces Institute of Pathology
   Department of Legal Medicine and Patient Safety Center, the Offices of the
   Surgeons General, and seven MTFs. At those locations, we obtained background
   information and summary information on quality assurance programs as well as
   open, closed, pending, and denied medical malpractice claims. We also met with
   personnel from the Army Claims Service, the Army Legal Services Agency, the
   Department of the Navy Office of the Judge Advocate General, and the Air Force
   General Counsel to the Surgeon General. At those locations, we documented the
   process for handling medical malpractice claims.

   We also obtained summary information on medical disability retirements from the
   Army Physical Disability Agency, the Navy Physical Evaluation Board, and the
   Air Force Physical Disability Division. We documented the process for medical
   disability active duty retirements or separations.

   To determine the MTFs that we would visit, we obtained summaries of MHS
   Standard Inpatient Data Records and the total number of dispositions by
   diagnostic related group for FY 2002. The FY 2002 information was the most
   readily available at the start of the audit. Using that information, we developed a
   compilation of total MTF enrollment populations, total dispositions, total number
   of obstetric dispositions (because of the high risk/high cost potential of
   malpractice claims), the type of facility, and the inpatient bed capacity. Using
   that information, we selected one medical center and one hospital at an Army,
   Navy, and Air Force location for review. We also selected a Navy hospital at a
   Marine Corps base. We limited our review to MTFs in the United States.

   At the selected MTFs, we reviewed the programs for quality assurance, patient
   safety, and risk management and assessed the reporting of medical incident
   information. We did not assess the effectiveness of the quality assurance program
   within the MTF. As part of our limited quality assurance review, we analyzed
   compliance of each MTF with 13 functional areas and the 67 elements supporting
   the reviews. We did not determine the validity of the results or how often
   personnel addressed each element and accepted the format and information
   provided by MTF personnel. We also met with TRICARE Management Activity
   personnel to discuss the history, training, and capabilities of CCQAS.


                                       22
We performed limited verification of the programs for patient safety and risk
management. We assessed the programs for compliance with the requirements
stated in the Regulation. We obtained lists of near miss, adverse, sentinel, and
PCEs for 2004 and 2005. We also obtained listings of medical malpractice claims
and potential product liability events for 2004 and 2005. For each category, we
selected one or two events to determine the type of analysis conducted and if risk
managers took action on the events. We also discussed the flow of information
once an adverse or sentinel event occurs but did not verify the accuracy of the
information reported. We reviewed reports on near miss, adverse and sentinel
events, and actions taken to improve patient safety. We did not determine the
validity and quality of the reviews but whether risk managers and patient safety
personnel reviewed and initiated action if appropriate. We also documented the
training curriculum used for educating clinical and administrative personnel about
PSP activities.

We also reviewed policies and procedures for risk management and reviewed how
risk managers identify and report PCE and claim information. We determined if
risk managers investigated adverse events and PCEs and if they initiated action to
mitigate unexpected effects of the event and protect the patient from additional
injury. We also determined if risk managers reported PCEs, medical malpractice,
and disability claims information. We met with personnel to discuss the Medical
Evaluation Board process. We did not try to identify active duty compensable
medical malpractice cases during our review.

We reviewed meeting minutes of the various hospital and departmental
committees from January 2004 through September 2005. We reviewed guidance
on the Military Departments’ Disability Evaluation System. We also discussed
with legal personnel their involvement in the identification of PCEs.

We performed the audit from May 2005 through August 2006 in accordance with
generally accepted government auditing standards.

Use of Computer Processed Data. We used computer-processed data obtained
from the Defense Manpower Data Center and the Standard Inpatient Data
Records system to establish workloads at MTFs, but we did not evaluate the
accuracy of the data. We also used limited information from the CCQAS system.
We did not perform a formal reliability assessment of the CCQAS
computer-processed data. However, we tested reliability of the data for each PCE
and medical malpractice claim we selected at the MTF level.

We also obtained the number of paid and closed claims from the Military
Departments and the Department of Legal Medicine. We did not establish
reliability of the data because we did not evaluate the details of the paid and
closed claims.

Government Accountability Office High Risk Area. The Government
Accountability Office (GAO) has identified several high-risk areas in DoD. This
report provides coverage of DoD strategic human capital management, which has
been identified as a high-risk area.




                                     23
Prior Coverage
    Since 2001, the GAO and the DoD Inspector General (DoD IG) issued two
    reports related to quality assurance in the MHS. Unrestricted GAO reports can be
    accessed over the Internet at http://www.gao.gov/. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.osd.mil/audit/reports.


GAO
    GAO Report No. GAO-06-362, “Improved Oversight Needed to Ensure
    Consistent and Timely Outcomes for Reserve and Active Duty Service
    Members,” March 2006


DoD IG
    DoD IG Report No. D-2001-037, “Collection and Reporting of Patient Safety
    Data Within the Military Health System,” January 29, 2001




                                       24
Appendix B. Discussion of Management
            Comments on Background and
            Finding and Unsolicited Comments
            on Recommendations*
          The ASD(HA), the Assistant Secretary of the Army (Manpower and Reserve
          Affairs), the Army Surgeon General, the Assistant Secretary of the Navy
          (Manpower and Reserve Affairs) and the Navy Surgeon General, provided
          comments on the Background and Finding sections of the report. The ASD(HA),
          the Army Surgeon General, and the Air Force Surgeon General also provided
          unsolicited comments on the recommendations. The additional comments and
          our responses that were not addressed at the end of the finding are shown below.

          Incident Reporting (page 1). We stated that risk management programs help
          reduce the Government’s liability by archiving PCE information for the possible
          defense of future malpractice cases. The Navy Surgeon General stated that PCEs
          are tracked to identify individual MTF or Navy-wide process and system issues
          and that PCE information helps to reduce future litigation by implementing risk
          reduction strategies. The Navy Surgeon General also stated that each PCE is
          unique and that they have very limited evidentiary value in defense of future
          specific malpractice claims.

          Audit Response. The Regulation states that, when risk management determines
          that an adverse event is a PCE and after consulting with the judge advocate/legal
          counsel, the adverse event should be recorded with reports archived as support for
          possible future malpractice cases. We agree with the Navy Surgeon General that
          each PCE is unique; however, the information archived in relation to a PCE has
          value by providing support related to possible litigation. A PCE may result in
          filing a medical malpractice claim. Information that documents the facts of a
          patient’s illness, their diagnosis, and treatment, is important for anticipated claims
          and legal actions and for risk management efforts to properly review such claims.
          Additionally, information related to active duty PCEs is also important, especially
          when active duty members have transferred to different duty locations.

          Reporting Medical Malpractice to the Surgeons General (page 7). The Army
          Surgeon General and Navy Surgeon General provided comments. The Army
          Surgeon General stated that our comment regarding senior medical officer
          involvement with the risk management program is incorrect. The Army Surgeon
          General also stated that our comment that Army guidance did not address
          reporting of compensable disability retirement cases is incorrect. The Army
          Surgeon General stated that Army Regulation 40-68 addresses the review and
          reporting of incidents involving active duty service members, including Medical
          Evaluation Board cases. The Navy Surgeon General stated that BUMED has
          processed and released completed disability claim information to Armed Forces

*
    We considered comments on recommendations that were not addressed to the organizations as
    unsolicited.



                                                   25
Institute of Pathology and stated that the illustration at Appendix D does not
include the transfer of final Physical Evaluation Board information from the
PEBLO to the MTF risk manager.

Audit Response. We agree with the Army Surgeon General comment about
senior medical officer involvement and revised the statement in the finding on
page 7. We disagree with the Army Surgeon General comments regarding the
reporting of compensable disability retirement or separation cases that result from
medical malpractice. The references provided by the Army Surgeon General do
not address reporting to his office after a disability or separation occurs.

The Navy Surgeon General comment that the Navy has processed and released
completed disability claims to the Armed Forces Institute of Pathology
Department of Legal Medicine is noted. As addressed in the finding, none of the
Navy MTFs visited could demonstrate that they were reporting compensable
disability retirements or separations caused by medical malpractice to BUMED.
Additionally, the illustration located at Appendix D only shows opportunities to
identify active duty adverse events, not the process for reporting those events.

Inconsistencies in the CCQAS Risk Management Module (page 11). The
Army Surgeon General stated that his staff uses the risk management module of
CCQAS and encourages improvements to the module. The Army modified the
incident submodule of CCQAS to assist Army MTF personnel in documenting
incidents identified as PCEs and stated that the functionality of the risk
management module is in need of extensive upgrade.

The Navy Surgeon General stated that individual Navy MTFs do not enter paid
claims in CCQAS and provided a brief description of the process BUMED uses
before submitting completed claims to the Armed Forces Institute of Pathology.
The Navy Surgeon General also stated that there are four submodules in the
CCQAS risk management module: the JAGMAN, claims, disability, and incident
submodules. The Navy Surgeon General stated that the JAGMAN is not an
incident-reporting module and that BUMED did not agree with allowing Armed
Forces Institute of Pathology access to data in the JAGMAN submodule prior to
the completion of the review process.

Audit Response. The Regulation requires that MTF risk management personnel
promptly report every PCE in CCQAS, and that personnel in the Offices of the
Surgeons General report every medical malpractice claim, both filed and paid,
into CCQAS. The intent of our discussion was to point out inconsistencies in the
reporting of claim information in CCQAS and to show opportunities for
improving the visibility of PCE and claim information. During the audit, we
found that Offices of the Surgeons General personnel received claim payment
information from the respective Military Department Judge Advocate General,
and in some cases, forwarded that information to the MTF where the PCE
originated. We also found examples where personnel in the Judge Advocate
General’s office submitted claim payment information to the MTF. We maintain
that CCQAS should contain information that assists the ASD(HA) and the
Military Departments in MHS-wide analysis of PCEs and related claim
information. Consistent information and uniform use of CCQAS should provide
complete and timely oversight of PCEs, medical malpractice, and disability
claims. As a result of the Navy comments, we revised page 10 of the finding to


                                     26
clarify the requirements of the Regulation. Military Department involvement
with revisions to the Regulation should improve the timeliness and visibility of
PCE and paid claim information.

In response to the Navy Surgeon General’s comments, we did not recommend
that the Armed Forces Institute of Pathology be able to view or access
information in the JAGMAN submodule. We stated that consistency does not
exist among the Military Departments in fields that are mandatory to populate the
claims and disability submodules. We also stated that access is not available to
ASD(HA) healthcare managers for filed and paid medical malpractice claims and
disability claims until the Surgeons General complete their review and release the
information to the Department of Legal Medicine. Rather than provide complete
access to the JAGMAN, our intention was for senior healthcare managers to
develop uniform data requirements to facilitate MHS-wide analysis. This is
consistent with the Regulation that requires the Offices of the Surgeons General
to enter into the CCQAS all medical malpractice claims, both filed and paid, and
all adverse actions for electronic monitoring by the Department of Legal
Medicine of the Armed Forces Institute of Pathology. Finally, we revised page 11
of the finding to acknowledge that there are four risk management submodules.

ASD(HA) Comments on Patient Safety and Risk Management Reporting
(page 13). The ASD(HA) recommended that we change the text of the report to
reflect a change in the deployment date for the Patient Safety Reporting system.
We modified the final report to show that the Patient Safety Reporting system will
not deploy until FY 2007.

Unsolicited Comments on Recommendations and Related Comments on
Supporting Details in the Finding. This section addresses management
comments on recommendations not made to them. Additionally, it addresses
management comments on the finding that are directly related to a
recommendation.

        Army Surgeon General Unsolicited Comments. The Army Surgeon
General concurred with Recommendation 1.a.(2)., 1.a.(3)., 1.a.(4)., and 1.a.(9).
On Recommendation 1.a.(1), the Army Surgeon General stated that an
experienced risk manager or physician can independently determine whether an
adverse event is potentially compensable, and that legal counsel is not always
necessary. On Recommendation 1.a.(5), the Army Surgeon General stated that
both the risk manager and senior medical officer have a responsibility to identify
and report compensable disability decisions to the Surgeon General. The Army
Surgeon General also commented on Recommendation 1.a.(6), stating that more
detailed medical incident information required for healthcare managers to monitor
the DoD Patient Safety Program may result in decreased MTF reporting. The
Army Surgeon General is concerned that monitoring the more detailed
information may lead to actions that are perceived by the MTF as punitive.

On Recommendation 1.a.(7) and 1.a.(8). the Army Surgeon General nonconcurred
and stated that the Regulation’s requirements for functional area reviews are
outdated and overly prescriptive. The current level of detail for the functional
areas should not be included in the Regulation because accrediting requirements
change more frequently than the Regulation. The Army Surgeon General also



                                    27
stated that DoD requirements for tracking and comparing functional areas should
be predicated on the performance improvement processes of the current
accrediting agency.

On Recommendations 1.b. and 1.c., the Army Surgeon General stated that to
ensure the consistent use of the CCQAS risk management submodules, DoD must
devote personnel and funding resources for additional CCQAS development. The
Army Surgeon General also stated that all Army MTFs are now using the module.
On Recommendation 1.d., the Army Surgeon General concurred and commented
that the deployment date for the pilot sites for the Patient Safety Reporting system
had been delayed to March 2007. The Army Surgeon General supports the
recommendation to link the patient safety and risk management systems for
limited data exchange.

        Audit Response. Although we agree that some adverse events are
obviously PCEs, Recommendation 1.a.(1). would require risk managers and legal
counsel to consider and evaluate all adverse events. We recognize that existing
Army guidance requires legal consultation in the determination of PCEs, but DoD
Regulation 6025.13 provides conflicting guidance on legal consultation. We
agree with the Army requirement and maintain that legal counsel provides further
insight into the legal merit of an adverse event for those cases that may not have
been considered a PCE by a risk manager.

For Recommendation 1.a.(7), we agree that some of the functional area review
requirements may not be up-to-date and may be subject to further change. This
condition does not invalidate the recommendation, which will allow complete and
consistent reporting of functional area review results. We support the ASD(HA)
efforts to revise this section of the Regulation, because we consider that
functional area reviews are a critical part of a successful quality assurance
program. Close coordination on the revisions to the Regulation should provide
the Military Departments with the opportunity to share their concerns on the
currency of accreditation standards, uniform content, and format of the reviews.
We continue to maintain that functional area consistency and completeness
among the Military Departments will enhance the DoD ability to track and
compare functional area review results with military and civilian benchmarks.

Regarding the Army Surgeon General comments on Recommendations 1.b. and
1.c. and related statements in the finding, we requested that ASD(HA) determine
whether the incident submodule is an adequate tool for reporting information on
PCEs. We also recognized that the Army modified the incident submodule of
CCQAS to assist Army MTF personnel in documenting incidents identified as
PCEs. We emphasize that CCQAS should contain information that assists the
ASD(HA) and the Military Departments in MHS-wide analysis of PCEs and that
the ASD(HA) should provide the resources necessary to accomplish this task. As
stated in the report, the consistent use of CCQAS varied among the Army MTFs
visited. We revised page 13 of the finding to acknowledge the change in the
deployment date of the Patient Safety Reporting system.

        Navy Surgeon General Unsolicited Comments. Although the Navy
Surgeon General did not comment on the recommendation, he commented on
details of the finding that support Recommendation 1. Related to
Recommendation 1.a.(1), the Navy Surgeon General stated that reviewing and


                                     28
screening incident reports is a clinical oversight responsibility and not a legal
function. The Navy Surgeon General stated that Navy MTF risk managers screen
cases and refer those that meet the criteria for a legal investigation to the Office of
the Judge Advocate General for legal advice and expertise.

Related to Recommendation 1.a.(6), the Navy Surgeon General stated that the
DoD PSP was established as a non-punitive reporting program to gain
information about processes and systems and that identification of specific
facilities beyond Navy identification adds nothing to the analysis at the MHS
level. The Navy Surgeon General did not agree with the statement that “visibility
beyond summarized and de-identifed information is necessary” for maintaining
oversight of the DoD PSP.

Related to Recommendations 1.a.(9), 1.b., and 1.c., the Navy Surgeon General
stated that the CCQAS risk management module is the appropriate venue for
reporting claims and PCEs. The Navy Surgeon General stated that there is no
official DoD PCE module and that BUMED does not support recording incident
information into CCQAS. The Navy Surgeon General cited the need for standard
PCE definitions, definitions of critical elements that trigger a PCE review,
designation of a PCE tracking module; and use of the Patient Safety Reporting
system for incident reporting instead of the CCQAS incident submodule currently
used by the Army for PCE identification.

For Recommendation 1.d., the Navy Surgeon General disagreed on establishing
an interface between the patient safety reporting system and CCQAS. The Navy
Surgeon General stated that the CCQAS risk management module is a claims
database and not an incident reporting system like the patient safety system. The
Navy Surgeon General stated that DoD is engaged in an acquisition process to
purchase a commercial product for a Patient Safety Reporting system that will
provide a standardized event reporting system for the Military Departments for
near miss and actual events.

       Audit Response. As discussed in our response to the Army’s concern
with Recommendation 1.a.1., we maintain that consultation with legal counsel is
necessary in PCE determinations.

On Recommendation 1.a.(6), the Regulation states that the ASD(HA) shall
monitor the effectiveness of the DoD PSP. The Navy Surgeon General agreed
that the new Patient Safety Reporting system will allow visibility of numerical
summary information. As discussed in the finding, a healthcare manager stated
that, to maintain oversight of the DoD PSP, visibility beyond summarized and
de-identified information is necessary to heighten awareness and enhance
visibility of patient safety activities across the MHS. The Military Departments
and OASD(HA) should continue to coordinate on revising the Regulation to
determine the information necessary to heighten awareness and enhance visibility
of patient safety activities.

The Navy Surgeon General comments on reporting claims and PCEs in the
CCQAS risk management module are similar to the Army and Air Force
comments. The Navy Surgeon General is correct in his statement that DoD needs
to establish criteria and guidance for determining what incidents should be
considered as PCEs. The ASD(HA) stated that the revision of the Regulation is


                                      29
being closely coordinated with the Military Departments. The Navy Surgeon
General comments should be considered by the ASD(HA) in the revision of the
Regulation. Close coordination with the Military Departments is necessary to
ensure that business process changes include a PCE submodule in CCQAS. On
Recommendation 1.a.(9), Military Department coordination on a revised
Regulation should assist the ASD(HA) in developing a PCE definition that can be
uniformly applied across the MHS.

Discussions on a draft of this report with BUMED risk management personnel
revealed concerns with establishing an interface between the patient safety and
risk management systems. Public Law 109-41, “The Patient Safety and Quality
Improvement Act of 2005,” provides legal privilege and confidentiality
protections to information that is reported by health care providers to patient
safety organizations. As of January 2007, the ASD(HA) had not received
implementing guidance from the Department of Health and Human Services. As
a result, the ASD(HA) could not determine how or when the public law would be
implemented in DoD MTFs. We recognize that patient safety and risk
management information must be separated to support the MHSs non-punitive
patient safety culture. However, as discussed in the audit responses to ASD(HA)
comments on Recommendation 1.d., the recommendation provides the flexibility
for ASD(HA) to establish the best solution for linking targeted data fields from
the patient safety program to the risk management program. DoD needs the
capability to track the life cycle of medical incidents. The ASD(HA) suggested a
unidirectional interface. We suggest that BUMED coordinate with the ASD(HA)
to determine the best solution for establishing a link and determining the data
targeted for exchange.

        Air Force Unsolicited Comments. On Recommendation 1.a.(6)., the Air
Force Surgeon General concurred and stated that the Air Force Medical Service
will comply and provide medical incident and adverse event information, as
required, for MHS-wide visibility of events. On Recommendation 1.b., the Air
Force Surgeon General stated that the Air Force Medical Service will implement
policy to use a PCE module in CCQAS when that capability is developed. For
Recommendation 1.d., the Air Force Surgeon General stated that the Patient
Safety and Quality Improvement Act of 2005 and other organizations do not
support an interface between patient safety reporting and risk management
systems. The Air Force Surgeon General stated that a culture of safety should be
established, one which supports an open atmosphere for reporting and correcting
errors. An interface between the patient safety system and the CCQAS risk
management system will have a profoundly negative effect on the Air Force’s
efforts to build a safety culture, which fosters reporting of near miss and adverse
events.

        Audit Response. Regarding the Air Force Surgeon General comments on
Recommendation 1.b., the Regulation requires CCQAS to be used to report PCEs,
and filed, paid, and disability claims. We acknowledge that the Regulation did
not specify where to report PCEs in the CCQAS risk management submodule and
that there is not an official PCE submodule. However, the Army and Navy are
using the incident and JAGMAN submodules as a method to record PCEs in
CCQAS. As discussed earlier in our response to the Army, we asked ASD(HA)
to determine if the incident submodule is an adequate tool for reporting
information on PCEs. The ASD(HA) concurred and agreed to implement the


                                    30
recommendation in the revised Regulation. The Air Force should coordinate
closely with ASD(HA) personnel on using the CCQAS risk management
submodule for reporting PCEs.

The Air Force had similar concerns to the Navy’s about establishing an interface
between CCQAS and the patient safety reporting system. See our response to the
Navy Surgeon General comments on Recommendation 1.d.

ASD(HA) Comments on Recommendation 2. The ASD(HA) stated that the
revisions to the Regulation would require both MTF leadership and the personnel
involved with the Medical Evaluation Board process to identify allegations of
injury to active duty members relating to medical care. The ASD(HA) stated that
processes would be specified in the Regulation to:

       •   identify and investigate adverse medical events involving active duty
           members when they occurred;

       •   ensure active duty adverse event cases are held in the risk management
           system for long term visibility;

       •   establish procedures requiring approving officials of Medical
           Evaluation Boards to identify and report any instances of possible
           active duty adverse events to the risk manager;

       •   use the Physical Evaluation Board process (through the PEBLO) to
           report any allegations from an active duty member whose disability
           could be the result of an adverse event that occurred in an MTF; and,

       •   establish a process to report the date of a disability determination for
           an active duty service member because of an adverse event.

The Regulation’s revision is being closely coordinated with the Military
Departments.

Audit Response. We agree with the ASD(HA) comments.

Functional Area Reviews (page 33). The Navy Surgeon General stated that
BUMED quality assurance guidance required many reviews that are now obsolete
and are no longer valid requirements. The Navy Surgeon General stated that
Navy MTFs are required to be accredited with the Joint Commission on
Accreditation of Healthcare Organizations and must meet requirements that
include pertinent functional areas.

        Audit Response. We acknowledge the Navy Surgeon General comments
that BUMED required reviews are now obsolete and that the reviews may no
longer be valid requirements. We adjusted page 34 of Appendix C to reflect their
concern in reference to their instruction. See our response to the Army regarding
Recommendation 1.a.7. about the requirements to meet standards of the Joint
Commission on Accreditation of Healthcare Organizations for further discussion
on this issue.




                                     31
Sentinel Events (page 35). The Navy Surgeon General also stated that its MTFs
use the Joint Commission on Accreditation of Healthcare Organizations’
definition for sentinel events, to include incidents involving serious psychological
injury.

        Audit Response. We acknowledge the Navy’s use of the Joint
Commission on Accreditation of Healthcare Organizations definition for
reviewable sentinel events, however, as discussed in Appendix C,
DoD 6025.13-Regulation defines sentinel events differently than the requirements
of the DoD Patient Safety Center summary reports. Close coordination with the
Military Departments on the revisions to the Regulation should alleviate the
concerns about consistent terminology.




                                     32
Appendix C. Additional Information Related to
            Quality Assurance Guidance
   The following sections provide additional information related to the Finding.

   Legal Counsel Participation in PCE Determinations. The Regulation states
   that risk managers should record PCEs after consulting with the MTF legal
   counsel, which would include legal counsel input as part of the determination
   process. Conversely, the Regulation also requires that the risk manager notify the
   MTF legal counsel within 24 hours of identifying a PCE. This requirement
   indicates that events are not subject to legal review because the PCE
   determination was made before the legal office was notified.

   Military Department guidance and MTF implementation is inconsistent regarding
   legal review of events as compensable. Army Regulation 40-68 requires that risk
   managers and patient safety managers review adverse events in conjunction with
   the hospital attorney and clinical advisor when making a PCE determination.
   Despite the Army regulation, risk management personnel at one Army MTF
   determined that some adverse events were not potentially compensable and did
   not include the events in the meetings of the risk management committee that the
   hospital attorney attended. Navy and Air Force guidance did not require legal
   review. None of the Navy and Air Force MTFs visited involved legal personnel
   until after PCE determinations were made.

   Identification of Alleged or Suspected Active Duty Adverse Events During
   the Medical Evaluation Board Process. Risk managers at the seven MTFs
   visited had no way of knowing how many active duty disability cases resulted
   from adverse events. Army Regulation 40-68, “Clinical Quality Management,”
   February 26, 2004, requires review of any adverse event, including Medical
   Evaluation Board cases involving death or injury to a soldier, to determine if the
   cases might be PCEs. However, the Army does not require that a Medical
   Evaluation Board report to the risk manager any suspected adverse events, and
   none were reported. Guidance for the Navy and Air Force does not discuss
   reporting suspected adverse events as part of the Medical Evaluation Board
   process nor does it require review of Medical Evaluation Board cases to
   determine if the cases were PCEs. As a result, unidentified cases continue to go
   unreported.

   Functional Area Reviews. Differences in information used to support functional
   area reviews consistently surfaced throughout the reviews of the 13 functional
   areas at the MTFs, and little consistency existed in the reviews. The Regulation
   should require a reporting format that includes frequency and content for the
   functional area reviews. The Regulation should require, and Military
   Departments should establish, focal points at the MTFs who can ensure that each
   element of the review is completed and consolidated. Finally, the Military
   Departments should comply with the review requirements of the Regulation.

   Each of the Military Departments handled performance of functional area reviews
   differently. Army Regulation 40-68 requires completion of process improvement


                                       33
functions on six functional areas identified in the Regulation. The Navy requires
that MTFs have programs that continually monitor the quality and
appropriateness of healthcare. BUMED Instruction 6010.13, “Quality Assurance
Program,” August 19, 1991, further identifies reviews in seven of the functional
areas cited in the Regulation. Risk management personnel at BUMED stated that
the requirement is obsolete and the reviews are no longer valid requirements. Air
Force guidance requires reviews of high-risk, high-volume, problem-prone
processes, and identifies seven of the Regulation’s functional areas.

The functional area reviews consistently mentioned in Military Departments’
guidance were surgical case, blood usage, drug use, medical record, and reviews
of other departments or services that MTFs identified. In addition to the five
reviews cited earlier, the Army included reviews of autopsy reports, the Navy
included pharmacy and therapeutics monitoring and invasive procedure reviews,
while the Air Force included reviews of autopsy reports and invasive procedures.
Following are examples of what we found at the MTFs visited.

At one MTF, documentation for the elements was in multiple sources at multiple
locations within the MTF. Personnel involved with quality improvement stated
that the review elements for the Special Care Unit are actually addressed in
command morning reports, annual competency training checklists, intensive care
unit educational history reports, and peer reviews of healthcare provider records.

At another MTF, clinical personnel located nursing utilization resource
summaries. That documentation supported Special Care Unit reviews throughout
the MTF as well as MTF orientation and education programs. We verified that
those items discussed each of the elements. The MTF did not, however, provide
documentation on other elements that the Regulation requires for completing the
functional area review.

MTF personnel at a third location could not provide documentation to support
their review of the Special Care Unit. Personnel provided documentation
indicating that the periodic performance record review completed on each
physician in the MTF may (emphasis added) include a patient who was in a
special care unit. We do not agree that those types of records satisfy the intent of
a review of a special care unit. The record review did not specifically discuss all
of the elements the Regulation identifies for a review of special care units.
Additionally, because the documentation supported a review of the physician and
not the unit, a review may or may not discuss the care of a patient within that
special care unit. The MTF did not provide any other documentation that would
support the review.

Quality Assurance Terminology. Clear and descriptive terminology is
necessary for categorizing, identifying, and reporting medical incidents.
Differences follow for the following terms: near miss, adverse, and sentinel event
and PCEs.

        Near Miss Events. The Regulation defines a near miss event as “any
process variation or error or other circumstance that could have resulted in harm
to a patient but through chance or timely intervention did not reach the patient or
did not harm (emphasis added) the patient.” The Patient Safety Center and the
Military Departments define a near miss as any process variation or error that


                                     34
could have resulted in harm to a patient, a visitor, or staff, but through chance or
timely intervention did not reach (emphasis added) the patient. The definition in
the Regulation would include incidents that reached, but did not harm, the patient
such as medication errors with no subsequent harm or patient falls without injury
as near misses. Because the incident reached the patient, the Patient Safety
Center and Military Departments would report those examples as an adverse
event. Under the Regulation, more events are near miss events while fewer are
near miss events under the Patient Safety Center and Military Department
definition. Comparisons of events across the MHS will not be accurate until
personnel report events based on similar definitions.

         Adverse Events. The Regulation defines an adverse event as
“occurrences or conditions associated with care or service when they cause
unexpected harm to a patient during such care or services.” The Patient Safety
Center uses the term “actual event” and defines it as an occurrence or condition
associated with the provision of healthcare or services that may or may not
(emphasis added) result in harm to the patient/beneficiary. A confusion or
difference in reportable information can occur because events such as medication
errors and patient falls reported as near misses according to DoD guidance are
reportable as adverse events under the Patient Safety Center and Military
Department definition even when there is no harm or permanent effect on the
patient.

The Army defines an adverse event in the same way that the Patient Safety Center
defines an actual event, and the Air Force is consistent in both terminology and
definition. However, BUMED Instructions 6010.21 and 6010.23, “Participation
in the Military Health System Patient Safety Program,” December 18, 2002,
define adverse events differently. One instruction implements the Regulation’s
definition while the other BUMED instruction defines an adverse event using the
Patient Safety Center definition for actual event. The inconsistencies lead to
fewer adverse events being identified under the Regulation while more adverse
events are identified using the Patient Safety Center definition.

        Sentinel Events. The Regulation defines sentinel events as “unexpected
occurrences involving death or serious physical or psychological injury or risk
thereof.” Guidance from the Military Departments mirrors the DoD Regulation.
However, the definition that the Patient Safety Center uses does not include
serious psychological injury as a sentinel event. Sentinel events classified as
serious psychological injury at the MTF may not be reported as sentinel events in
Patient Safety Center summary reports.

        Potentially Compensable Event. The Regulation defines a PCE as “an
adverse event that occurs in the delivery of healthcare and services with resulting
beneficiary injury. It includes any adverse event or outcome, with or without
legal fault, in which the patient experiences any unintended or unexpected
negative result.” The Army definition is consistent with the Regulation. The
Navy’s definition of a PCE is more descriptive than the one in the Regulation and
the Army regulation. BUMED Instruction 6010.13 states that a PCE is any event
or outcome that occurs during medical or dental care in which the patient does not
improve, suffers injury, or suffers illness of severity greater than ordinarily
experienced by patients with similar procedures or illnesses. The Air Force does
not clearly define PCEs in its guidance.


                                     35
Essentially, no difference exists in the Regulation between the definitions of an
adverse event and a PCE. Inconsistent definitions and use can cause different
interpretations. An adverse event with “unexpected harm” and a PCE with
“resulting beneficiary injury” mean the same thing. By definition, all adverse
events are PCEs. During our review, we were advised that DoD did not intend to
identify all adverse events as potentially compensable and that DoD should
evaluate each event separately to determine financial risk. Establishing uniform
and clear definitions should eliminate confusion on categorizing events as well as
how and when events are reportable.




                                    36
Appendix D. Opportunities to Identify Active
            Duty Adverse Events
    The following illustration shows the flow of information when military personnel
    are referred for medical evaluation at an MTF. The illustration shows initiation of
    the case through disposition by the Military Department’s Physical Evaluation
    Board and Physical Disability Decision Authority. We identified two
    opportunities within the medical evaluation process to isolate active duty adverse
    events that may have gone unreported when the active duty member received
    treatment at an MTF. The PEBLO and the Medical Evaluation Boards (MEB)
    approving official can report alleged and suspected medical incidents to the risk
    manager in conjunction with their medical evaluation duties. The risk manager,
    as the MTF focal point for making PCE determinations and entering the event
    into CCQAS, can notify the patient safety manager of previously unidentified
    events to review for improvements to patient safety at the MTF. The spaced
    dark-dashes from the PEBLO and approving official show opportunities for
    identifying possible adverse events during the medical evaluation process.

                                  Case Information       Active   Case Information
                                                          Duty
                                                        Member



   Disability Case Dispositions                      Case Information

                                    MTF
                                   PEBLO                                         MTF/MEB
                                                                                Case Review
                                                     MEB Cases



                                          Allegations
            MEB Cases                                                                 MEB
            Referred to PEB                                                           Cases
                                                                  MTF/MEB
                                                                  Approving
                                                                   Official



                                                                        Suspected
                                                                        Active Duty
       Physical                         MTF                             Adverse Events
   Evaluation Board               Risk Management
     and Service
   Physical Disability
   Decision Authority




                                           37
Appendix E. Functional Area Reviews
   The Regulation requires medical staffs to monitor and evaluate the quality and
   appropriateness of patient care and clinical performance by completing regularly
   scheduled quality assurance reviews and meetings. The table below lists 13 of the
   14 functional area reviews and the 67 elements that we reviewed at the seven
   MTFs visited. We did not review the “adverse outcomes screening” functional
   area because we included those elements in our review of patient safety and risk
   management.

                     Functional Areas and Elements for Review
      Functional     Regulation
        Area         Reference                       Element for Review
    1. Surgical      C6.1.2.1.     Regularly scheduled surgical case review shall be
    Case Reviews                   performed and include appropriate review of all surgical
                                   procedures performed in the operating room, all
                                   ambulatory surgery, and all major invasive diagnostic
                                   procedures.
                     C6.1.2.1.1.   Pre-operative, post-operative, and pathologic diagnoses
                                   shall be compared and discrepancies evaluated.
                     C6.1.2.1.2.   Each case in which no tissue or non-diagnostic specimens
                                   are removed shall be evaluated for the acceptability of or
                                   the need for the procedure.
                     C6.1.2.1.3.   List of tissue samples not reviewed, for example, those
                                   resulting from newborn circumcision or cataract
                                   extraction. Cases requiring more intensive evaluation
                                   should be identified and specifically documented in
                                   committee minutes.
                     C6.1.2.1.4.   When sampling is employed, criteria that define
                                   appropriateness of or indications for surgery shall be
                                   defined and uniformly applied.
                     C6.1.2.1.5.   All cases in which discrepancies have been identified shall
                                   be evaluated through peer review.
                     C6.1.2.1.6.   Surgical case review of practitioners who are not members
                                   of the department of surgery.
    2. Autopsy       C6.1.2.2.     The pre-mortem and postmortem clinical diagnoses and
    Case Reviews                   the presumptive and final autopsy diagnoses shall be
                                   compared for all autopsies. Disagreements among them
                                   shall be evaluated.
    3. Anatomic      C6.1.2.3.1.   At least 10 percent of all surgical cases from which the
    Pathology Peer                 tissue samples have been submitted; as close as is possible
    Reviews                        to 100 percent review should be sought.
                     C6.1.2.3.2.   Review of all permanent tissue sections shall be
                                   accomplished in a timely manner, as befitting the
                                   respective individual clinical situation.




                                         38
  Functional     Regulation                      Element for Review
    Area         Reference

4. Invasive      C6.1.2.4.     Invasive procedures shall be reviewed for quality and
Procedure                      appropriateness. Review shall include comparison of pre-
Reviews                        and post-procedure diagnosis and pathologic diagnosis;
                               adverse or unexpected patient reactions and shall address
                               patient notification of results.
5. Blood Usage   C6.1.3.1.1.   Review of blood component use.
Reviews
                 C6.1.3.1.2.   Review each confirmed transfusion reactions, to include
                               clinical management. Possible transfusion reactions must
                               be defined by medical staff.
                 C6.1.3.1.3.   Evaluate cross-match-to-transfusion ratio; compare type
                               and screen versus type and cross-match, and any suspected
                               overuse.
                 C6.1.3.1.4.   Adequacy of medical staff-approved policies and
                               procedures relating to the distribution, handling, use, and
                               administration of blood and blood components. Policies
                               and procedures shall be reviewed annually.
                 C6.1.3.1.5.   Adequacy of ordering practices for blood and blood
                               products.
                 C6.1.3.1.6.   Sampling must be statistically representative of cases and
                               departments or services.
6. Drug Use      C6.1.4.1.     Evaluate prophylactic, therapeutic, and empiric use to
Reviews                        ensure that all drugs are used in accordance with
                               guidelines that address appropriateness, safety, and
                               evaluation of effectiveness.
                 C6.1.4.2.1.   High volume use.
                 C6.1.4.2.2.   Identified from literature as a significant health risk.
                 C6.1.4.2.3.   Known or suspected of high incidence of adverse
                               reactions.
                 C6.1.4.2.4.   Known or suspected to cause drug interactions.
                 C6.1.4.2.5.   Used in patients at higher risk of adverse reactions.
                 C6.1.4.2.6.   Medications known to be addictive or have significant
                               drug issues identified through infection control and quality
                               assurance activities.
                 C6.1.4.3.     Drug dispensing errors, drug administration errors, and
                               untoward reactions associated with administered
                               intravenous additive solutions shall be properly
                               documented and routinely reviewed through pharmacy
                               and nursing quality assurance programs.
                 C6.1.4.4.     Drug prescription errors documented and reviewed.




                                     39
Functional       Regulation    Element for Review
Area             Reference
7. Pharmacy      C6.1.5.1.     The development or approval at least annually of policies
and                            and procedures relating to the selection, distribution,
Therapeutics                   handling, use, and administration of drugs, and diagnostic
Reviews                        testing materials.
                 C6.1.5.2.     Review of the drug formulary.
                 C6.1.5.3.     Evaluation and approval of protocols for use of
                               investigational drugs, as appropriate, in coordination with
                               the clinical investigations committee.
                 C6.1.5.4.     Definition and review of all significant untoward drug
                               reactions.
8. Medical       C6.1.6.       There shall be a system for selection of records for review
Records Review                 at regularly scheduled intervals (no less frequently than
                               every quarter).
                 C6.1.6.1.1.   A sample of records shall be reviewed for clinical
                               pertinence; that is, the degree that the Inpatient Treatment
                               Record reflects the diagnosis, results of diagnostic tests,
                               therapy rendered, condition, and in-hospital progress of
                               the patient, and condition of the patient at discharge.
                               Inpatient Treatment Records shall also be reviewed for
                               timely completion.
                 C6.1.6.1.2.   Sampling shall represent the full scope of the MTF, reflect
                               special attention to high-volume and high-risk diagnoses
                               and procedures, and include a representative sample of all
                               practitioners within a 12-month timeframe.
                 C6.1.6.2.1.   History and Physical not completed within 24 hours after
                               admission.
                 C6.1.6.2.2.   Operative Report not dictated within 24 hours of surgery.
                 C6.1.6.2.3.   Narrative Summary not dictated within 4 working days of
                               patient discharge.
                 C6.1.6.2.4.   Cover Sheet not completed within 4 working days of
                               patient discharge.
                 C6.1.6.2.5.   Inpatient Treatment Records not completed within 30 days
                               of discharge shall be attributed to either an individual or
                               an institutional problem. Summation of medical record
                               delinquencies data shall be reported on a quarterly basis to
                               the QA or appropriate committee. Appropriate data shall
                               be entered into the provider activity file.
                 C6.1.6.3.     Outpatient Treatment Records and Health Records shall be
                               reviewed for clinical pertinence and completeness.
9. Anesthesia    C6.2.1.       Appropriateness of choice of anesthetic agent.
Review
                 C6.2.2.       Appropriateness of decision to reintubate.
                 C6.2.3.       Appropriateness of length of stay in recovery room.
                 C6.2.4.       Appropriateness of pre- and post-operative visit
                               documentation.




                                     40
Functional          Regulation      Element for Review
Area                Reference
9. Anesthesia       C6.2.5.         Anesthesia-related delays in surgery.
Review
(continued)
                    C6.2.6.         Compliance with infection control policies and
                                    procedures.
                    C6.2.7.         Anesthesia complications and management.
10. Emergency       C6.3.1.         Adherence to protocols or criteria for handling
Medical                             emergencies.
Services (EMS)*
                    C6.3.2.      Review of culture results with patient follow-up to ensure
                                 appropriateness of therapy.
                  C6.3.3.        Comparison of the final x-ray report with the initial
                                 interpretation by the emergency room physician.
                  C6.3.4.        Review of ambulance records for appropriateness of
                                 treatment en route.
                  C6.3.5.        Compliance with infection control policies and
                                 procedures.
                  C6.3.6.        Review of referrals.
*
 EMS elements are examples of indicators to monitor and evaluate the quality of care.
11. Ambulatory C.6.4.1.          Appropriateness of diagnosis, treatment, and follow-up of
Care                             frequently seen disease entities.
                  C.6.4.2.       Appropriateness of outpatient care provided pre-and post-
                                 hospitalization for patients with chronic illnesses.
                  C.6.4.3.       Follow-up of abnormal diagnostic tests.
                  C.6.4.4.       Availability of radiology, laboratory, and pharmacy
                                 services, and the availability of the results of such services
                                 in a timely manner.
                  C6.4.5.        Control and monitoring of patients on anticoagulants.
                  C.6.4.6.       Compliance with infection control policies and
                                 procedures.
                  C.6.4.7.       Appropriateness of appointment scheduling (including
                                 backlogs) based on the patient's condition.
                  C6.4.8.        Follow-up of patients referred to other facilities to
                                 determine that assessment was accomplished in a timely
                                 manner.
                  C6.4.9.        Follow-up of the return of outpatient treatment records to
                                 the servicing MTF to include x-rays of patients referred to
                                 other facilities.
12. Special       C6.5.1.        Appropriateness of admission to the unit (defined by
Care Units                       written criteria).
                  C6.5.2.        Appropriateness of medications and treatment ordered and
                                 given.
                  C6.5.3.        Appropriateness of request for consultations.
                  C6.5.4.        Availability of necessary physician and supporting staff.
                  C6.5.5.        Orientation and education programs.
13. Other         C6.6.          Review and evaluation of other activities integral to
Departments                      provision of patient care.
and Services



                                          41
Appendix F. Summary of Recommendations from
            the DoD Healthcare Quality
            Initiatives Report
   The Healthcare Quality Initiatives Review Panel developed four general
   recommendations to improve quality in the MHS in response to quality
   improvement initiatives proposed by the then Acting ASD(HA).

          •   Implement a Unified Military Medical Command to achieve stability
              and uniformity of healthcare processes and resource acquisition and
              manage an error reduction and safety program based on root cause
              analysis, system process redesign, responsive resource management,
              and provider education.

          •   Achieve comparability of oversight and accountability across the
              TRICARE spectrum including both the direct care and purchased care
              components.

          •   Expand and refine credentials management for all healthcare
              professionals in the MHS to: enhance oversight, accountability, and
              career management (especially education) for such personnel; and
              support implementation of and develop experience with a centralized
              federal interagency credentials repository.

          •   Install robust and comprehensive data systems capable of measuring
              and monitoring quality outcomes, resource utilization, and healthcare
              costs.

   Additionally, they developed 44 specific recommendations to improve quality in
   the MHS. The following seven recommendations relate to this report.

          •   Improve the DoD Risk Management Program by using an integrated
              tri-Service process to address cases, perform analysis, and provide
              coordination with external agency peer review and the Armed Forces
              Institute of Pathology Department of Legal Medicine.

          •   Improve timeliness of reporting to the National Practitioner Data Bank
              and eliminate associated backlogs in reporting.

          •   Require a uniform comprehensive process for identification and
              reporting of practitioners not meeting the standard of care in claims by
              active duty Service members (Feres Doctrine cases).

          •   Refine CCQAS to interface with other federal agency platforms,
              include meaningful, relevant, supportive clinical data; offer
              programmed and ad hoc capabilities for generating reports so that
              various levels of oversight and management can better manage
              personnel.



                                       42
       •   Re-establish and improve the Quality Management Report as a vehicle
           to facilitate meaningful, specific comparisons among the Services, the
           Federal agencies, and the civilian healthcare sector, especially in the
           risk management and patient safety arena.

       •   Promulgate a definition of “quality” concerning MHS and TRICARE
           healthcare and related services that can be used to identify and
           position data and automation support initiatives in the future.
           Incorporate the definition into DoD Directive 6025.13, “Clinical
           Quality Management Program in the Military Healthcare System.”

       •   Update DoD Directive 6025.13, “Clinical Quality Management in the
           Military Health Services System,” and include a definition of quality
           for TRICARE clinical healthcare and related services to orient current
           and future measurement initiatives.

As a result of the panel’s recommendations, DoD published DoD
Directive 6025.13, “Medical Quality Assurance (MQA) in the Military Health
System (MHS), May 4, 2004, and DoD 6025.13-R, “Military Health System
(MHS) Clinical Quality Assurance (CQA) Program Regulation,” June 11, 2004.
DoD incorporated some of the panel’s recommendations into the Directive and
Regulation and implemented some of them in the MHS to improve overall quality
management.




                                    43
Appendix G. Glossary
   The definitions that follow are frequently used by quality management, risk
   management, and patient safety personnel. The definitions are in DoD Regulation
   6025.13-R and DoD Manual 6015.1, “Glossary on Healthcare Terminology,”
   January 1999. The definitions may be changed based on revisions to the
   Regulation.

   Actual Event is an occurrence or condition associated with providing healthcare
   or services that may or may not result in harm to the patient or beneficiary.
   Actual events may be the result of a commission or omission. Incidents such as
   patient falls or improper administration of medications are actual events even if
   there is no harm or permanent effect on the patient. (Patient Safety Center
   definition).
   Adverse Event is an occurrence or condition associated with care or services
   when they cause unexpected harm to a patient during such care or services.
   Adverse events may be acts of commission or omission.
   Armed Forces Institute of Pathology is a tri-Service agency that consults,
   educates, and researches in the field of pathology.
   Joint Commission on Accreditation of Healthcare Organizations is a private,
   not-for-profit organization with representatives from the American College of
   Surgeons, American College of Physicians, American Hospital Association,
   American Medical Association, and American Dental Association. The purpose
   of the organization is to establish standards for operating of health facilities and
   services, conduct surveys, and determine accreditation status of medical facilities.
   Medical Evaluation Board is a board convened at an MTF to report about the
   health and physical status of a member of the Armed Forces. The board
   recommends further evaluation and treatment or, as appropriate, renders an
   opinion about the future health status and related needs of the member.
   Near Miss is any process variation or error or other circumstance that could have
   resulted in harm to a patient but through chance or timely intervention did not
   reach the patient or did not harm the patient. Such events or circumstances are
   sometimes referred to as “close calls.”
   Physical Evaluation Board is a board that provides three stages of review for a
   Service member who has been referred by a Medical Evaluation Board of an MTF
   that believes that the member’s physical condition raises questions about his or
   her ability to perform the duties of his or her office, grade, rank, or rating.
   Potentially Compensable Event (PCE) is an adverse event that occurs during
   the delivery of healthcare and services and that results in injury to the beneficiary.
   A PCE includes any adverse event or outcome, with or without legal fault, in
   which the patient experiences any unintended or unexpected negative result.
   Sentinel Events are unexpected occurrences involving death or serious physical
   or psychological injury or risk thereof.


                                        44
Appendix H. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Health Affairs)
General Counsel

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform




                                          45
Assistant Secretary of Defense (Health Affairs)
Comments




                       47
48
49
50
51
Final Report
 Reference




Revised
page 13




               52
Department of the Army Comments




                    53
54
     Final Report
      Reference




     Revised
     page 7




55
Final Report
 Reference




Revised
page 13




               56
57
58
59
Department of the Navy Comments




                    60
61
62
     Final Report
      Reference




     Revised
     page 10




     Revised
     page 11




63
Final Report
 Reference




Revised
page 34




               64
65
66
Department of the Air Force




                      67
68
69
70
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support Directorate prepared this report. Personnel of
the Department of Defense Office of Inspector General who contributed to the
report are listed below.

Wanda A. Scott
Robert F. Prinzbach II
Michael A. Joseph
Timothy J. Tonkovic
Robert J. Hanlon
Anna P. Martin
Tamika S. Ali
Danny O. Hatten
Mary Ann Hubbell
Laura L. Sanders
Laura G. Walton
Sharon L. Carvalho
Jacqueline N. Pugh
